                                                   NA TIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: AI0080061                                                                          Page 1 of 1



                   oro conducted an inquiry into an allegation that the Subject l submitted two NSF proposals
         containing copied text. · The Subject's response to our inquiry dispelled the allegation related to one
         of the proposals; however, there was sufficient evidence to proceed with an investigation focused on
         the other proposal. Because the proposal was submitted by a small business, we conducted our own
         investigation.

                We concluded, based on a preponderance of the evidence, that the Subject recklessly
         committed plagiarism, deemed a significant departure from accepted practices. We
         recommended actions to be taken to protect the federal interest and the Deputy Director
         concurred with our recommendations.

                 This memo, the attached Report ofInvestigation, and the Deputy Director's letter constitute
         the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11102)
                                  NATIONAL SCIENCE FOU NDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230


                                             AUG 2 4 Z011

      OFFICE OF THE
        DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re:     Notice of Research Misconduct Determination


Dear D r . _

                                          to the National Science Foundation ("NSF") entitled,
                                                                                        As
document in the attached Investigative Report prepared by NSF's Office of Inspector General
("OIG"), this proposal contained plagiarized material.

Research Misconduct and Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF .. ." 45 CFR § 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.l(a)(3). A finding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

        Your proposal contained verbatim and paraphrased text copied from numerous source
documents. By submitting a proposal to NSF that copied the ideas or words of another without
adequate attribution, as described in the OIG Investigative Report, you misrepresented someone
else's work as your own. Your conduct unquestionably constitutes plagiarism. I therefore
conclude that your actions meet the definition of "research misconduct" set forth in NSF's
regulations.
                                                                                              Page 2
        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c) . After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
 evidence, your plagiarism was committed recklessly and constituted a significant departure from
 accepted practices of the relevant professional community. I am, therefore, issuing a finding of
research misconduct against you.

         NSF's regulations establish three categories of actions (Group I, IT, and ill) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(1).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689 .3(a)(2). Group ill actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
recklessly. I have also considered the fact that your misconduct was not part of a pattern of
plagiarism, and had a limited impact on the research record, as well as other relevant
circumstances. 45 CFR § 689.3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

       (1) Until August 29,2013 , you must provide certifications to the OIG that any proposal
           or report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
           fabricated material; and

       (2) Prior to submitting additional proposals to NSF, but no later than August 29,2012,
           you must certify to the OIG that you have taken a course on ethics, which includes
           discussion on citation practices.

       The certifications should be submitted in writing to NSF's OIG, Associate Inspector
General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia 22230.


Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR § 689 .l0(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
                                                                                              Page 3
Arlington, Virginia 22230 . If we do not receive your appeal within the 30-day period, this
decision will become final.

       For your infonnation, we are attaching a copy of the applicable regulations . If you have
any questions about the foregoing, please c a l l _ Assistant General Counsel, at (703)
292-8060.



                                                     Sincerely,




                                                     Wanda Ward
                                                     Senior Advisor to the Director




Enclosures:
Investigative Report
45 C.F.R. Part 689
CONFIDENTIAL                                                                    CONFIDENTIAL




      National Science Foundation
        Office of Inspector General




                      Confidential
                 Report of Investigation
                Case Number A10080061
                              April 14, 2011
                 This Confidential Report of Investigation is provided to you
                                 FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result
 in personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be
 further disclosed within NSF only to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 552a. Please take appropriate precautions handling this confidential report of investigation.

                                                                           NSF OIG Form 22b (11/06)
CONFIDENTIAL                                                                      CONFIDENTIAL


                                    Executive Summary

Allegation:      Plagiarism.

OIG Inquiry:     OIG identified 6 sources from which approximately 97 lines were copied into
                 one awarded NSF proposal.

OIG
Investigation:
                 OIG concluded, based on a preponderance of the evidence, that the Subject
                 recklessly committed plagiarism, and that the plagiarism constituted a
                 significant departure from accepted practices of his professional community.

OIG
Assessment:
                 •   The Act: The Subject plagiarized 97 lines from six sources into one
                     awarded NSF proposal.
                 •   Intent: The Subject acted recklessly.
                 •   Standard of Proof: A preponderance of evidence supports the conclusion
                     that the Subject committed plagiarism.
                 •   Significant Departure: The Subject's plagiarism represents a significant
                     departure from accepted practices.
                 •   Pattern: No substantive pattern was identified.

OIG
Recommends:
                 •   Make a finding of research misconduct against the Subject.
                 •   Send the Subject a letter of reprimand.
                 •   Require certifications from the Subject for a period of2 years.
                 •   Require certification of attending an ethics class within 1 year.




                                               1
CONFIDENTIAL                                                                           CONFIDENTIAL



                                              OIG's Inquiry

        OIG conducted an inquiry into an allegation that the Subject! submitted two NSF
proposals (Proposal 12 and Proposal 23) containing copied material. Our analysis identified 129
lines and two figures copied from eight sources in Proposal 1, and a small amount of text copied
from four additional sources4 in Proposal 2.

        OIG contacted the Subject about the allegation. s In his response,6 the Subject, via his
attorney, said he "takes full responsibility for his work and any errors that were made.,,7 He
explained the copied material was either: 1) authored by and provided to him by collaborators,
2) referenced in the works cited section but not near the text, or 3) used without any citation. 8

       The Subject concluded by explaining that his very small, two-person company9
"previously had no system to review or critique his proposals," but said he "will take steps to
ensure that no such future errors occur.,,!O Specifically, he said:

              •     The company!! will comply with NSF's implementation of the America
                    COMPETES Act "by obtaining training in the responsible and ethical conduct of
                    research;"
              •     He will "obtain training in proper citation and attribution;"
              •     He will submit future proposals "to research colleagues for review and criticism
                    prior to NSF submission;" and
              •     He will "acquire anti-plagiarism software, and will review all future proposals to
                    identify inadvertently copied text.,,!2

We reviewed the Subject's response and concluded it dispelled the allegations regarding three
sources. Specifically, we concurred with the Subject's contention, confirmed by documentary
evidence, that the Subject's collaborators authored Sources C and D, and allowed the Subject to
use text and images from Sources C and D within Proposal 1.13 We also concurred that Source L
was authored after the Subject submitted Proposal2!4 and we could not identify another source
containing identical text. As such, we removed these three sources from our analysis. We




Subject.          ect
4 Tab 3: Alleged Source Documents A-L.
5 Tab 4.
6 Tab 5.
7 Tab 5, pg 1.
8 Tab 5, pg 1.


~~5,pg4.
11_
12 Tab 5, pg 4-5.
I3 Tab 5, pg 2.
14 Tab 5, pg 4.




                                                     2
CONFIDENTIAL                                                                                       CONFIDENTIAL


concluded that Proposal 2 contained de minimis plagiarism and could be removed from further
review, but that there was sufficient evidence to proceed with an investigation focused on
Proposal 1.

           . The following chart summarizes the allegedly copied material in Proposal 1:

                                          Source                    Proposall
                                                                    (Awarded)
                                A (article)ls                                 62 lines
                                B (article)                                    4 lines
                                E (web note re: product)                      18 lines
                                F (article)                                    2 lines
                                G (webpage)                                    3 lines
                                H (webpage)                                    8 lines
                                Total (UNIQUE)                               97 lines



                                                OIG Investigation

        Given the size and nature of the small business that submitted the proposal, OIG
conducted its own investigation rather than referring the matter to the institution. OIG began by
re-examining the proposal. We noted that the copied text was limited to background matter,
product descriptions, commercial potential, was referenced in the Works Cited section, or, as
with the most extensive copied text,16 contained an embedded citation located near a portion of
the inadequately cited text.

        We examined three other NSF proposals 17 the Subject authored to determine whether the
action constituted part of a larger pattern. Examination of these documents identified no substantive
plagiarism.

         We informed the Subject of our investigation and asked him to respond to additional
questions. 18 In his response,19 the Subject reiterated: "I take full responsibility for my work and any
errors that were made.,,2o He said that while he sent proposal drafts to others for editing, review, and
comment, he "was responsible for proposal integration and editing of the final drafts and
submission .... " 21




15   Text annotated Al and A2 was used two times within Proposal 1, but is counted once to ensure unique line count.
16




~d);
~(Declined).           The Subject has submitted a
   Tab 6.
19 Tab 7.
20 Tab 7, pg 1.
21 Tab 7, pg 11.




                                                           3
CONFIDENTIAL                                                                                  CONFIDENTIAL



           The Subject said, that prior to receiving our inquiry letter,

                      I presumed that the peer review and academic writing style standards
                      would be more relaxed [for SBIR proposals] as not as critical as what
                      is required in the more formal academic and large company grant
                      process. 22

He has "not taken a course on grant writing and do[es] not work under a documented writing style,,,23
but rather, developed his proposal writing style "over a 20 year period of 'on the job' training.,,24 He
added: "I depend on my collaborators and use and adopt their proposal and writing style(s) as I
incorporate their inputs, edits and comments into our proposals.,,25

        The Subject said he had "never been instructed in the defmition of plagiarism as set forth by
NSF, other grantor agencies or academic institutions.,,26 He "was never required to take a course on
research ethics and [has] also never been provided the opportunity to take such a course.,,27 As such,
he relied on advice, such as

                      . . . quoting from referred journals as background information could
                      be done as long as the work was referenced in the bibliography or
                      reference sections of the proposa1. 28 [and]

                      ... proposals would be only reviewed by government scientist [sic]
                      for the technical merit on whether the proposed concept could achieve
                      the deliverables required from the solicitation and whether the
                      concept could possibly be a commercially viable product. 29

        Consistent with our request,30 the Subject provided our office with a copy of his current cv.
His CV indicated he was educated entirely in the United States. 31 It further indicated that all of his
employment, including a position as an adjunct assistant professor,32 was in the United States.33
Similarly, it stated the Subject has served as co-author and/or primary author of 12 publications
(including his dissertation), seven patents, and eight presentations. 34 These writings were all
done in English-language publications and the presentations were all given in the United States.




22  Tab 7, pg   II.
23  Tab 7, pg   12.
24 Tab 7, pg    12.
25 Tab 7, pg    12.
26 Tab 7, pg    II.
27 Tab 7, pg    II.
28 Tab 7, pg    II.
29 Tab 7, pg    11 and 12.
30 Tab 6.
3 1 Tab 7


33   Tab 7, pg 1-4.
34   Tab 7, pg 4-7.


                                                        4
CONFIDENTIAL                                                                                       CONFIDENTIAL


        To determine the standards of the Subject's research community, we first examined the
standards of his employers immediately prior to his current small business affiliation. 35 Two
previous employers were research units affiliated with a university.36 Though their respective
websites do not include policies regarding research misconduct, the university with which they
are affiliated does. The university's current research misconduct policy, issued less than one
year into the Subject's three and a half year employment, defines misconduct in science as
fabrication, falsification, or plagiarism. 37

        Second, although the Subject's most recent publications were from 1996, we reviewed
the standards of the journals in which the Subject has published. One journal's current Editorial
        8
Policl stated simRly: "Authors are expected to prepare their manuscripts according to high
ethical standards." 9 The publication guidelines from a professional society4o at whose
conferences the Subject presented and subsequently published currently state:

                  Plagiarism constitutes unethical scientific behavior and is never
                  acceptable. Proper acknowledgment of the work of others used in a
                  research project must always be given. Further, it is the obligation
                  of each author to provide prompt retractions or corrections of
                  errors in published works. 41

       Finally, we reviewed the standards of another profe.·I society that recognized the
Subject for exceptional scientific/commercial innovation in       42 The society's current ethical
and professional guidelines are extensive, including information on "Proper Use of Sources.,,43
The society currently also provides comprehensive guidance regarding plagiarism:

                  Plagiarism is not acceptable in [the society's] journals. [The
                  society's] journals adhere to the U.S. National Science Foundation
                  definition of plagiarism as "the appropriation of another person's
                  ideas, processes, results, or words without giving appropriate
                  credit" (45 Code of Federal Regulations, Section 689.1). Authors
                  should not engage in plagiarism - verbatim or near-verbatim
                  copying, or very close paraphrasing, of text or results from
                  another's work. 44

35 We did not review the standards of the Subject's educational institutions - his Bachelor's Degree was granted in
~and his Ph.D. in~ as any standards currently available were most likely not those applicable during the




                                                          5
CONFIDENTV\L                                                                                  CONFIDENTIAL




        It is unclear whether the guidelines currently presented online by the journals and
professional societies were in place at the time the Subject was most affiliated with the
respective entity. Nonetheless, given the Subject's academic background45 and the field in which
he currently conducts research, the guidelines presented closely mirror those under which the
Subject should be knowledgeable. 46

        The Subject addressed intent in the conclusion to his response. He stated: "The errors
made were unintentional and I will immediately implement the remedial measures discussed in
our prior letter.,,47

      To conclude our investigation, we asked for information regarding the small businesses.
The Subject explained:

                  [The two companies ]48 are two separate companies that were
                  established to serve two different types of Technology areas.
                  [Company 1]49 was established as a biotech company to perform
                  research and develop genetic/genomic based technologies.
                  [Company 2]50 was established to do research that centers around
                  medical devices and to serve and collaborate with other small
                  businesses and entrepreneurs who are interested in licensing their
                  technology to us to further develop their products or invest in new
                  product lines. 51

The Subject said he is the majority owner and CEO of both companies. 52 One company53 has two
other shareholders; the other54 has only one other shareholder55 and has been inactive for most of
its existence. 56 Both companies share the same single room office. 57

         The Subject said both companies participate exclusively in the SBIR program. 58 A list of
all the proposals the businesses submitted to any federal agency in the last five years indicated
that they submitted 62 proposals. 59 The Subject's CV indicates he received 32 contract awards,


4S His Master's and PhD. are in the field
46 Neither the Subject's CV nor                corltaills intonmation about the Subject's professional society
membership.
47 Tab 7     13.




SS Tab 7, pg 12.
56 Tab 7, pg 12.
57 Tab 7, pg 12. The address                                                             Subject explained that
Wdoes not maintain laboratory space, as
   Tab 7, pg 11.
59 Tab 7, pg 15.




                                                    6
CONFIDENTIAL                                                                       CONFIDENTIAL



of which only three were non-SBIR. 60 No duplicate funding was identified in the list of awarded
proposals. A review ofthe Subject's history in the Small Business Administration's Tech-Net
database confirmed the Subject has not received duplicative funding.

                                       OIG's Assessment

       A finding of research misconduct by NSF requires (1) there be a significant departure
from accepted practices of the relevant research community, (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a
preponderance of the evidence.61

                                             The Acts

        Our review found the Subject plagiarized 97 lines, from six sources into one funded
proposal. OIG concludes the Subject's actions constitute plagiarism, as described in NSF's
definition. In offering material composed by others as his own, the Subject misrepresented his
own efforts and presented reviewers with an incorrect measure of his abilities.

        OIG found the Subject's actions constituted a significant departure from accepted
practices of his professional community.



         We conclude the Subject acted recklessly in plagiarizing material in Proposal 1. First, he
did not contest he included material from the sources and acknowledged that in certain cases he
did erroneously include material without any citation. Second, the majority of the copied
text62 did include a citation in the Works Cited section of his proposal, and was consistent with
the (incorrect) guidance he said he received from colleagues. Third, the Subject, who operates
within a very small business rather than academic context, lacked the oversight and guidance
needed to ensure the integrity of his proposals, a flaw he now recognizes and is taking measures
to correct. Fourth, the Subject developed his grant-writing techniques in an ad hoc manner by
observing and copying the practices of his collaborators, with no way of knowing the sufficiency
or appropriateness of the collaborators' practices, and no apparent concern about that lack of
knowledge. We therefore conclude the subject's actions were reckless.


                                        Standard o{Proo{

      OIG concludes that the Subject's actions and intent were proven based on a
preponderance of the evidence.




60   Tab 7, pg 7-10.
61   45 C.F.R. §689.2(c).
62   Sources A and B.


                                                 7
CONFIDENTIAL                                                                           CONFIDENTIAL



        OIG concludes that the Subject, by a preponderance of the evidence, recklessly
plagiarized, thereby committing an act of research misconduct. 63


                                        OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
             (1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it
             was an isolated event or part of a pattern; (4) Whether it had a
             significant impact on the research record, research subjects, other
             researchers, institutions or the public welfare; and (5) Other
             relevant circumstances. 64

                                                      Seriousness

       The Subject's actions are a violation of the standards of scholarship and the tenets of
general research ethics. Copied text serves to misrepresent one's body of knowledge, presenting
reviewers with an inaccurate representation of a proposal's merit.

                                       Degree to which Action was Reckless

        OIG finds that the Subject acted recklessly. A reasonable person would be expected to
know that using verbatim text without demarcation was not acceptable. We believe the Subject's
lack of appreciation for this straightforward rule went beyond mere carelessness in light of his
lack of training, adequate guidance, and institutional oversight over a period of many years, as
well as his acknowledged dependence on the unvalidated practices of others. We therefore
conclude that his actions were distinctly reckless.

                                                         Pattern

           We did not identify a pattern of plagiarism.


                                                  Recommendation

Based on the evidence, OIG recommends NSF:

                •    send a letter of reprimand to the Subject informing him that NSF has made a
                     finding of research misconduct;65




63   45 C.F.R. part 689.
64   45 C.F.R. § 689.3(b).
65   A letter of reprimand is a Group I action (45 C.F.R. §689.3(a)(1)(i)).


                                                             8
CONFIDENTIAL                                                                                              CONFIDENTIAL



                •    require the Subject to certify to OIG' s Assistant Inspector General for
                     Investigations (AlGI) that proposals or reports he submits to NSF do not contain
                     plagiarized material for 2 years;66 and

                •    require the Subject to complete an ethics course, which includes discussion on
                     citation practices, within 1 year and provide certification of its completion to
                           67
                     010.




66   Certification by an individual is a final action that is comparable to the final actions listed in 45 C.F.R. §689.3(a).
67   Completing an ethics course is a final action that is comparable to the [mal actions listed in 45 C.F.R. §689.3(a).


                                                               9
